<html>
<title> - FROM THE 9/11 HIJACKERS TO AMINE EL-KHALIFI: TERRORISTS AND THE VISA OVERSTAY PROBLEM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 FROM THE 9/11 HIJACKERS TO AMINE EL-KHALIFI: TERRORISTS AND THE VISA 
                            OVERSTAY PROBLEM

=======================================================================


                                HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND

                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2012

                               __________

                           Serial No. 112-73

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] CONGRESS.#13

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
76-600                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Sheila Jackson Lee, Texas
Ben Quayle, Arizona, Vice Chair      Brian Higgins, New York
Scott Rigell, Virginia               Hansen Clarke, Michigan
Jeff Duncan, South Carolina          Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security..........................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7

                               Witnesses

Mr. John Cohen, Deputy Counter-Terrorism Coordinator, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................     8
  Joint Prepared Statement.......................................    10
Mr. Peter T. Edge, Deputy Associate Director, Homeland Security 
  Investigations, Immigration and Customs Enforcement, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    15
  Joint Prepared Statement.......................................    10
Mr. David T. Donahue, Deputy Assistant Secretary of State for 
  Consular Affairs, U.S. Department of State:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18


 FROM THE 9/11 HIJACKERS TO AMINE EL-KHALIFI: TERRORISTS AND THE VISA 

                            OVERSTAY PROBLEM

                              ----------                              


                         Tuesday, March 6, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Rogers, Duncan, Cuellar, 
and Clarke of Michigan.
    Mrs. Miller. The Committee on Homeland Security, our 
Subcommittee on Border and Maritime Security will come to 
order. The subcommittee is meeting today to hear testimony from 
John Cohen, deputy counter terrorism coordinator, the 
Department of Homeland Security; Peter Edge, deputy executive 
associate director for homeland security investigations within 
U.S. Immigration and Customs Enforcement; and David Donahue, 
the deputy assistant secretary of state for consular affairs, 
on the vitally important topic of visa security. I would 
recognize myself for an opening statement.
    Since 9/11 our border security efforts have been very 
focused on stopping illegal immigrants and illicit drugs from 
entering our country, and we have really principally focused 
much of our efforts on our Southwest Border. However, 
estimates--some estimates as high as in the 40 percentile of 
all illegal aliens that are in our country just don't sneak 
across the border; they don't come in through the desert. They 
actually come in through the front door, so to speak, by 
obtaining a legitimate visa, and then they are here, they have 
a visa overstay, and they just simply never leave.
    To secure our Southwest Border we have spent literally 
billions of dollars on agents, on fencing, on cameras, and 
there is no question, of course, that many of these investments 
have brought tangible security gains to the border and have 
helped stem the tide of illegal aliens trying to cross the 
border on the southern part of our Nation. There is an 
important distinction to be made, I think, however, between 
those who are crossing the border largely in search of a better 
life and terrorists who abuse the visa process with the 
ultimate goal of actually destroying our way of life.
    To that end, I think that recent events should solidify in 
our minds the need to take really a holistic approach of border 
security and not view it as simply one-dimensional with all of 
the emphasis on one region of the country or only about 
security at the physical borders, whether that be the Southern 
Border, the Northern Border, our coastal borders. Entering a 
country and overstaying a visa has been the preferred method 
for terrorists actually to enter our country. The recent case 
of Amine el-Khalifi, who was a 29-year-old Moroccan citizen who 
allegedly attempted to conduct a suicide attack on the U.S. 
Capitol--that is not the first time that terrorists have 
exploited our visa process.
    In fact, el-Khalifi follows a long line of terrorists going 
back to the first World Trade Center attack in 1993 and, as 
this committee has noted many times, also includes several of 
the 9/11 hijackers, these terrorists who overstayed their visas 
and then went on to conduct or plan terrorist attacks. In fact, 
more than 36 visa overstayers have been convicted of terrorism-
related charges since 2001.
    I was going to have the staff put up a slide, if they can 
get it up here. I think it is interesting to take a look at 
these faces on this slide and think about the visa violations 
of these high-profile figures and what has happened here.
    Clearly, more needs to be done to ensure the integrity of 
the visa system, including enhancements to Immigration and 
Customs Enforcement's ability to identify and promptly remove 
those who are overstaying their visas. Pushing out the border 
and conducting more rigorous vetting of visa applicants 
overseas through the Visa Security Program, which stations ICE 
officers and agents overseas, as well as the inclusion of 
fingerprints into the visa application process have made the 
visa process more secure than it was, certainly, before 9/11. 
However, I think we are all concerned with our ability to track 
and to promptly remove overstays who remain in our country.
    It is especially troubling that el-Khalifi lived illegally 
in the United States for more than 13 years before being 
identified by law enforcement. During that time he had several 
run-ins with the law, but ICE really only identified him as an 
overstay once a current terrorism investigation was underway by 
the FBI agents who el-Khalifi thought, of course, were al-
Qaeda, actually.
    How many more visa overstayers are there out there who 
might pose a serious threat to the security of our homeland? We 
are all very concerned that ICE does not have a way to identify 
and track down overstays who entered the country prior to 2003, 
before our US-VISIT program was created, and we are concerned 
that we do not have a good enough handle on the number of 
overstayers that are in the country right now.
    ICE arrests and puts into removal proceedings only a small 
fraction of those who overstay their visa who, for the most 
part, are caught because they commit an additional crime and 
are identified through Secure Communities, which is a fantastic 
program. This committee has had a number of hearings about 
Secure Communities. It is an excellent, excellent program with 
tangible benefits.
    However, the administration's insistence on administrative 
amnesty through prosecutorial discretion, which el-Khalifi may 
have been eligible for before the start of this investigation 
due to his long presence in this country, certainly gives us 
pause, and it is clear that administrative amnesty could result 
in deferring action for some illegals who go on to commit more 
serious crimes and perhaps even those who would go on to try to 
commit a terrorist attack.
    So I look forward to hearing from our witnesses today on 
progress made since the creation of US-VISIT in 2003 on 
overstaying--identifying overstays, especially those who pose 
National security and public safety threats, and how the 
Department of Homeland Security plans to implement a 
comprehensive visa exit system that will prevent terrorists 
from successfully exploiting our visa system--a requirement, I 
might add, that was first mandated by Congress in 1996.
    Last September this committee held a hearing on the topic 
of visa security, and so this is sort of a follow-on hearing to 
that. Actually, it was during that hearing that we heard that 
the Department was rolling out an enhanced biographic program 
which would add an additional layer of security to the visa 
process, and so we are interested today to hear about the 
progress that we have made on that program as well as what the 
plans are to develop an exit system.
    More than 10 years ago on that day in September we learned 
a very hard lesson, and as the 9/11 Commission has noted--this 
is something they actually said in their recommendation in 
their report--the 9/11 Commission said, ``For terrorists, 
travel documents are as important as weapons.'' That, I think, 
is an important statement for all of us to reflect upon. Four 
of the 9/11 hijackers, as I mentioned, had overstayed visas--a 
missed opportunity to prevent the attacks which caused the 
deaths of nearly 3,000 people.
    Without the hard work of the FBI and the bravery of their 
undercover agents Amine el-Khalifi may have been successful in 
carrying out his planned attack on the Nation's Capitol, so 
obviously we would all like to offer our sincere thanks and 
congratulations to the brave men and women--the agents who were 
involved in that investigation. Great job on that.
    You know, if we are serious about controlling who comes 
into the Nation and preventing another attack we need to get 
serious about an exit program. It has been more than 2 years 
since the exit pilot program was in both Detroit and Atlanta, 
and we are still waiting for the Department to really 
articulate a plan to move forward with a comprehensive exit 
plan in the air environment or elsewhere, for that matter. So 
it is long overdue for a plan to move the Nation toward a 
viable and cost-effective exit solution and we will be very 
interested in the testimony of the witnesses today and we 
appreciate them all coming.
    But at this time, Chairwoman now recognizes the Ranking 
Member of the subcommittee, the gentleman from Texas, Mr. 
Cuellar, for his opening statement.
    [The statement of Chairwoman Miller follows:]
               Statement of Chairwoman Candice S. Miller
                             March 6, 2012
    Since 9/11 our border security efforts have been focused on 
stopping illegal immigrants and illicit drugs from entering the 
country; chiefly our Southwest Border.
    However, some estimates are that 40 percent of all illegal aliens 
do not sneak across the border; they come in through the front door by 
obtaining a legitimate visa and simply never leave.
    To secure our Southwest Border, we have spent billions of dollars 
on agents, fencing, and cameras--there is no question that many of 
these investments have brought tangible security gains to the border 
and have helped stem the tide of illegal aliens attempting to cross the 
border.
    There is an important distinction to be made between those who 
cross the border, largely in search of a better life, and terrorists 
who abuse the visa process with the ultimate goal of destroying our way 
of life.
    To that end, I think recent events should solidify in our minds the 
need to take a holistic view of border security and not view it as one-
dimensional with all of the emphasis on one region of the country, or 
only about security at the physical borders.
    Entering the country and overstaying a visa has been the preferred 
method for terrorists to enter the country. The recent case of Amine 
el-Khalifi, a Moroccan citizen, who allegedly attempted to conduct a 
suicide attack at the U.S. Capitol, is not the first time terrorists 
have exploited the visa process.
    In fact, el-Khalifi, follows a long line of terrorists, going back 
to the first World Trade Center attack in 1993 and includes several of 
the 9/11 hijackers who overstayed their visas and went on to conduct or 
plan terrorist attacks. In fact, more than 36 visa overstayers have 
been convicted of terrorism-related charges since 2001.
    Clearly, more must be done to ensure the integrity of the visa 
system, including enhancements to Immigration and Customs Enforcement's 
ability to identify and promptly remove those who overstay their visa.
    Pushing out the border and conducting more rigorous vetting of visa 
applicants overseas through the Visa Security Program which stations 
ICE agents overseas, as well as the inclusion of fingerprints into the 
visa application process have made the visa process more secure than it 
was before September 11.
    But I am also concerned with our ability to track and promptly 
remove overstays who remain in the country.
    It is especially troubling that el-Khalifi lived illegally in the 
United States for more than 13 years before being identified by law 
enforcement. During that time, he had several run-ins with the law, but 
ICE only identified him as an overstay once the current terrorism 
investigation was underway by the FBI.
    How many more visa overstayers are out there who pose a serious 
threat to the security of the homeland?
    I remain concerned that ICE does not have a way to identify and 
track down overstays who entered the country prior to 2003, before US-
VISIT was created and am concerned we do not even have a good handle on 
the total number of overstayers in the country right now.
    ICE arrests and puts into removal proceedings only a small fraction 
of those who overstay their visa, who for the most part are caught 
because they commit an additional crime and are identified through 
Secure Communities--which I think is a fantastic program that helps 
identify criminal aliens.
    However, this administration's insistence on administrative amnesty 
through prosecutorial discretion--which el-Khalifi may have been 
eligible for before the start of this investigation, due to his long 
presence in the country, gives me great pause and it is clear that 
administrative amnesty will result in deferring action for some 
illegals who go on to commit more serious crimes--and perhaps even 
those who will go on to commit a terrorist attack.
    I look forward to hearing from our witnesses today on progress made 
since the creation of US Visitor and Immigrant Status Indicator 
Technology (US-VISIT) in 2003 in indentifying overstays, especially 
those that pose National security and public safety threats, and how 
the Department of Homeland Security plans to implement a comprehensive 
visa exit system that will prevent terrorists from successfully 
exploiting the visa system--a requirement, I might add, that was first 
mandated in 1996.
    Last September this committee held a hearing on the topic of visa 
security--and during that hearing we heard that the Department was 
rolling out an enhanced biographic program to add a layer of security 
to the visa process; I am very interested to hear about the progress 
made on that program as well as what plans are in place to develop an 
exit system.
    More than 10 years ago on that day in September, we learned a hard 
lesson--as the 9/11 Commission noted, ``For terrorists, travel 
documents are as important as weapons.''
    Four of the 9/11 hijackers had overstayed visas--a missed 
opportunity to prevent the attacks which caused the death of nearly 
3,000 people.
    Without the hard work of the Federal Bureau of Investigation, and 
the bravery of their undercover agents Amine el-Khalifi might have been 
successful in carrying out an attack on the Nation's Capitol, so I 
would like to offer my sincere thanks to those agents involved in this 
investigation.
    If we are serious about controlling who comes into the Nation and 
preventing another attack, we need to get serious about an exit 
program.
    It has been more than 2 years since the exit pilot in Detroit and 
Atlanta and the Department has yet to articulate a plan to move forward 
with a comprehensive exit plan in the air environment or elsewhere.
    It's long overdue for a plan to move this Nation toward a viable 
and cost-effective exit solution. With that I'd like to recognize the 
gentlemen from Texas.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Cuellar. Thank you, Madam Chairwoman. I am pleased that 
this subcommittee is meeting today to examine the issue of 
immigration overstay.
    Cases such as the 9/11 hijackers and more recently the 
Capitol Hill bomber have underscored the potential homeland 
security threat posed by individuals who enter this country on 
visas but overstay the authorized--or should I say the 
authorized period of time in the United States. Of the 
approximate 11.5 million to 12 million unauthorized resident 
alien population that was mentioned a few minutes ago, an 
estimated 33 to 48 percent are overstayed. Not everybody 
crossed the river; not everybody swam across the Rio Grande, as 
some people think. But there are actually 33 to 48 percent of 
them are--got here through a legal method.
    Of course, the overwhelming majority of individuals who 
enter this country do so for legitimate purposes. Even of those 
who enter the United States illegally or enter legally but 
overstay, the majority pose no threat. However, a small handful 
of people seek to enter this country for evil purposes.
    Since 2001 the Department of Homeland and the Department of 
State, with the direction from Congress, have taken important 
steps to identify, locate, and address overstays, particularly 
those that may pose a security or a safety risk to our 
communities. Within the Immigration and Customs Enforcement, 
ICE, and the Counterterrorism and Criminal Exploitation Unit 
they are primarily responsible for overstay enforcement.
    However, the CTCEU is not the only entity within ICE that 
removes overstay. Indeed, the primary responsibility for 
apprehending and removing overstays and other aliens who do not 
have lawful immigration status rests with ICE Enforcement and 
Removal Operation--Removal Operations--the ERO.
    Various programs, from the Secure Communities to the 
Criminal Alien Programs--Program, identify and remove overstays 
from this country every day. However, more remains to be done.
    I was encouraged to hear that at our last hearing that we 
had DHS had reduced the backlog of overstay cases by half, and 
I hope to hear on that, and congratulations on that effort that 
you are doing. I look forward to hearing where DHS has 
continued to make strides in this particular area and what else 
can we do to try to help you continue those strides. I also 
hope to hear about how the administration's plan to move U.S. 
visas functions to ICE and CBP will help those agencies fulfill 
their respective missions more effectively.
    At the subcommittee's September 2011 hearing on visa 
security I also expressed my concern about the so-called 
recalcitrant countries. These countries refuse to accept the 
return of their nationals or use of lengthy delay tactics to 
avoid taking these nationals back that are unlawfully in the 
United States.
    Again, just as an illustration, the--this is only an 
example of this recalcitrant countries: Pakistan has an average 
travel document issuance time of 149 days; China has a time of 
148 days; India has a time of 267 days; Bangladesh has a time 
of 434 days; Cambodia has 277 days; Vietnam has a time of 285 
days; Iraq has 594 days. When you look at--and I emphasize to 
my friends, since I live on the border--everybody thinks that 
everything is coming from Mexico and South America, but for my 
friends, let me give you some days. The average time for 
documents from those countries: Guatemala, Honduras, El 
Salvador, Dominican Republic, Columbia, Mexico, and Ecuador 
takes an average of--going down that order--9 days, 5 days, 23 
days, 22 days, 13 days, 36 days, 34 days, respectfully. You 
compare it to 594 days, 285 days, 277 days, 434 days, 267 days, 
148 days, 149 days, that shows you why I think we need to put 
an emphasis to make sure that we use our resources in a better 
way.
    I know I have talked to John Morton about this several 
times. I will see him again tomorrow.
    Again, Mr. Edge, Mr. Cohen, I ask you to continue working, 
and Mr. Donahue, with the State Department. I understand 
diplomatic relations; I understand all that. But I think we 
need to put a little bit more pressure on those countries to 
get them to do that, because it is costing the taxpayers a lot 
of money, and I have the costs as to how much it costs for some 
of those countries.
    So I would like to hear more details from our witnesses 
today about why visas continue to be issued to individuals from 
those countries, and at what rate, and as well as recommended 
steps for improving actions. Again, so again, if we are still 
giving those visas out to those countries, we understand they 
are very difficult in taking those folks back when they need to 
take them back. I think we need to rechange our--and--and look 
at the steps in addressing that.
    So, Madam Chairwoman, I thank you for holding this hearing 
and I thank all the witnesses for being here today.
    Mrs. Miller. Thank the gentleman for his comments.
    Other Members of the committee are reminded that their 
opening statements could be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 6, 2011
    Some in Congress seem to believe that securing America's Southwest 
Border is the answer to our Nation's illegal immigration concerns.
    But an estimated 40 percent of individuals unlawfully present in 
the United States actually entered this country legally and have simply 
overstayed.
    Among those millions of people may be a handful who seek to do us 
harm.
    Addressing this so-called ``overstay'' issue is essential not only 
to immigration control, but also to homeland security.
    Certainly, the 9/11 attacks focused the Federal Government on the 
importance of securing the visa process and addressing the potential 
threat posed by certain individuals who remain in the United States 
after their visas expire.
    Under Democratic leadership in the 110th and 111th Congresses, this 
committee held hearings on the issue of visa overstays.
    I am pleased the subcommittee is also examining the issue today.
    I would like to hear from our DHS witnesses about what tools they 
need to be more successful at locating and addressing individuals who 
have overstayed their visas in the United States--particularly those 
who may pose a safety or security threat to this country.
    I also hope to hear from our State Department witness about what 
they are doing to prevent individuals who are likely to overstay from 
receiving visas in the first place.
    As part of the effort to address the overstay issue and in 
accordance with a 
9/11 Commission recommendation, Congress has repeatedly required the 
Department of Homeland Security to deploy a biometric entry-exit system 
under US-VISIT.
    Such a system would help DHS determine whether an individual has 
departed the United States or has remained in this country.
    Yet more than a decade after September 11, 2001, DHS is still 
without a biometric exit system.
    The lack of significant progress toward this mandate has been 
troubling to those of us who believe a biometric entry-exit system is 
essential to border security.
    However, last year DHS made significant strides by eliminating 
about half of the 1.6 million record backlog in US-VISIT.
    Much more remains to be done, however.
    I hope to hear from our DHS witnesses today about how they are 
working to resolve the remaining backlog cases, as well as how the 
Department is moving forward to identify cost-effective technology for 
implementing biometric exit at ports of entry.
    Finally, I would note that I was pleased to see the 
administration's proposal in the fiscal year 2013 budget request to 
transfer US-VISIT's functions to CBP and ICE.
    US-VISIT in its current configuration has so far failed to meet its 
mandate.
    By moving the program's functions to CBP and ICE, it will be more 
closely aligned with the operational components that work with and rely 
on the program on a day-to-day basis.
    The transfer should bring efficiencies, and hopefully more progress 
toward implementing the mandated biometric exit system.
    I look forward to discussion about that transfer here today.
    In closing, I would note that while the issue before the 
subcommittee today is of great importance, I was dismayed to learn that 
``Part II'' of last month's hearing on maritime cargo security hearing 
would not being held today as planned.
    It is my hope that the subcommittee will complete its work on that 
hearing in the near future.
    I thank the witnesses for being here today and I yield back the 
balance of my time.

    Mrs. Miller. I will just introduce, now, all three of our 
witnesses at the same time, and then we will start with Mr. 
Cohen.
    John Cohen serves as the principal deputy coordinator for 
counterterrorism at the United States Department of Homeland 
Security and as a senior advisor on counterterrorism, law 
enforcement, and information sharing. He has also served as the 
senior advisor to the program manager for the information 
sharing environment in the Office of the Director of National 
Intelligence.
    Peter Edge began his law enforcement career in 1986 with 
the Essex County, New Jersey prosecutor's office before his 
selection as a special agent with the U.S. Customs Service in 
Newark, New Jersey. In 2005 Mr. Edge was promoted to the 
position of assistant special agent in charge in the New York 
office where he led high-profile investigative components, such 
as the New York High Intensity Financial Crime Area, JFK 
International Airport, and the Immigration Division. Today he 
serves as the deputy executive associate director for homeland 
security investigations within the U.S. Immigration and Customs 
Enforcement.
    David Donahue is the deputy assistant secretary for visa 
services, Bureau of Consular Affairs. He has previously served 
as minister counselor for consular affairs in Mexico City and 
was the consul general in both Manila and Islamabad.
    So we certainly appreciate all of the witnesses coming. We 
have an excellent panel here today. We look forward to your 
testimony.
    The Chairwoman now recognizes Mr. Cohen.

STATEMENT OF JOHN COHEN, DEPUTY COUNTER-TERRORISM COORDINATOR, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Cohen. Thank you, Chairman Miller, Ranking Member 
Cuellar, and distinguished Members of the committee--the 
subcommittee. Thank you for the opportunity to participate in 
this very, very important hearing.
    Madam Chairwoman, I have submitted written testimony and 
request that it be included as part of the record.
    Mrs. Miller. Without objection.
    Mr. Cohen. In your opening statements you and the Ranking 
Member both expressed concerns that terrorists and others who 
pose a risk to the National security of the United States seek 
to exploit the visa and visa waiver programs and travel to and 
remain illegally in the United States. The Department of 
Homeland Security certainly shares your concern, which is why, 
as you pointed out, over this past summer, at the direction of 
Secretary Napolitano, we began an intensive effort to address 
gaps to these programs by integrating and interlinking key law 
enforcement and National security information repositories with 
our immigration and travel systems.
    This effort began, as I described when I last met with you, 
as a very tactical effort intended to vet approximately 1.6 
million records that were commonly referred to as the 
overstayed backlog. I would note that these records, under past 
regimes, would not have been vetted from a National security 
and public safety perspective. But for very obvious reasons 
that you have pointed out the Secretary instructed that they be 
so vetted.
    But through this effort, which included the efforts of ICE, 
CBP, US-VISIT, the National Counterterrorism Center, and others 
in the Federal Government, it led the Department to a better 
understanding and the development of a way forward for a more 
expansive overstay vetting system and a path forward for 
establishing an enhanced entry-exit capability. We continue to 
implement this effort, allocating $4.1 million from fiscal year 
2011 funds and identifying an additional $10.9 million in 
fiscal year 2012 funds to pay for a series of system and 
operational enhancements.
    The result, today, leveraging the technical and operational 
capabilities of US-VISIT, ICE, and CBP, and our strong 
relationship with other Federal entities like the Department of 
State and NCTC, we recurrently vet all visa applicants, all 
visa holders, and potential overstays from a National security 
and public safety perspective. This recurrent vetting ensures 
that as new intelligence and new derogatory information is 
acquired by the Federal Government we can quickly and 
effectively target those individuals for enforcement actions, 
whether it be an FBI investigation or whether it be for some 
other type of immigration enforcement.
    These enhancements make it harder for individuals to 
overstay their visas and avoid detection, and conversely, make 
it easier for the Department to confirm when someone is an 
overstay and target them for enforcement action. I should note 
that this includes increasing the Department's ability to take 
administrative action against confirmed overstays that are not 
public safety or National security risks.
    These enhancements will also result in greater efficiencies 
to our Visa Security Program and they will provide the core 
components of an enhanced entry-exit system. They will also, 
Madam Chairwoman, ensure that we can more accurately track 
overstay rates by country.
    Specifically, through these efforts DHS will be better able 
to validate documents presented during the visa application 
process or prior to an individual traveling to the United 
States, increasing our capacity to detect and prevent the use 
of fraudulent passports and other travel documents. We will 
also be able to ensure that fingerprints and other biometric 
data captured prior to travel to the United States is 
accurately matched with biographic records, improving our 
ability to accurately identify those traveling to the United 
States and further identify those biometrics with multiple 
identities in our systems.
    We are vetting visa applicants and those traveling from 
visa waiver countries against a broader array of law 
enforcement and National security information, enhancing our 
current capacity to ensure that those who pose a risk to the 
United States are identified prior to their travel to the 
United States. We are automating database queries that today 
require time-consuming manual database checks, thereby 
improving operational efficiencies and ensuring that we never 
again have a backlog of unvetted potential overstay records.
    Through the use of name-matching algorithms we are ensuring 
that departure data collected at U.S. air and sea ports more 
accurately match data collected upon a person's entry to the 
United States. As Secretary Napolitano has communicated to 
Congress, the technology and process enhancements that are 
currently underway will provide the foundation for a biometric 
air exit program. They will also immediately improve the 
ability of DHS operational components to identify and take 
action against those who have overstayed their lawful status.
    For this reason, it is critical that the Department 
continue to fully implement these improvements described to the 
subcommittee when I appeared before you last September, and 
with your support we will continue to do so. Thank you, and I 
will be happy to answer any questions.
    [The joint statement of Mr. Cohen and Mr. Edge follows:]
           Prepared Statement of John Cohen and Peter T. Edge
                             March 6, 2012
                              introduction
    Chairman Miller, Ranking Member Cuellar, and distinguished Members 
of the subcommittee: On behalf of Secretary Napolitano and Director 
Morton, thank you for the opportunity to discuss the efforts of the 
Department of Homeland Security (DHS) to prevent the exploitation of 
our visa system by terrorists and criminals. Visa overstays and other 
forms of immigration status violation bring together critical areas of 
DHS's mission--National security and immigration enforcement, and the 
determination of whom to allow entry into the United States.
Joint Anti-Fraud Strategy
    We recognize that those who pose National security threats may seek 
to commit immigration benefit fraud in order to enter or remain in the 
United States. For that reason, we work hard to detect and deter 
immigration fraud and to continually enhance our anti-fraud efforts. 
ICE exercises criminal authority in the detection and deterrence of 
immigration fraud, while USCIS exercises administrative authority. This 
strategy allows ICE to concentrate its efforts on major fraud 
conspiracies and other cases of National security or public safety 
interest, while allowing USCIS to address the bulk of immigration 
benefit fraud cases administratively.
    Through ICE Document and Benefit Fraud Task Forces (DBFTFs), we 
focus our efforts on detecting, deterring, and disrupting document and 
benefit fraud. DBFTFs bring together the joint expertise of Federal, 
State, and local law enforcement partners to formulate a comprehensive 
approach in targeting the criminal organizations and the beneficiaries 
committing immigration fraud.
The Visa Security Program
    The Homeland Security Act of 2002 directs the Department of 
Homeland Security (DHS) to assist in the identification of visa 
applicants who seek to enter the United States for illegitimate 
purposes, including criminal offenses and terrorism-related activities. 
The visa adjudication process often presents the first opportunity to 
assess whether a potential non-immigrant visitor or immigrant poses a 
threat to the United States. The Visa Security Program (VSP) is one of 
several ICE programs focused on minimizing global risks.
    Through the Visa Security Program (VSP), ICE deploys trained 
special agents overseas to high-risk visa activity posts in order to 
identify potential terrorist and criminal threats before they reach the 
United States. ICE special agents conduct targeted, in-depth reviews of 
individual visa applications and applicants prior to issuance, and 
recommend to consular officers refusal or revocation of applications 
when warranted. DHS actions complement the consular officers' initial 
screenings, applicant interviews, and reviews of applications and 
supporting documentation.
    ICE now conducts visa security investigations at 19 high-risk visa 
adjudication posts in 15 countries. In fiscal year 2012 to date, VSP 
has screened 452,352 visa applicants and, in collaboration with DOS 
colleagues, determined that 121,139 required further review. Following 
the review of these 121,139 applications, ICE identified derogatory 
information on more than 4,777 applicants.
    In March 2010, the National Targeting Center (NTC) within U.S. 
Customs and Border Protection (CBP) implemented a program to conduct 
continuous vetting of U.S. non-immigrant visas that have been recently 
issued. Recurrent vetting ensures that changes in a traveler's visa 
status are identified in near-real-time, allowing CBP to immediately 
determine whether to provide a ``no board recommendation'' to a 
carrier, to recommend revocation of the visa to DOS, or to notify ICE 
regarding individuals determined to be within the United States. Since 
the program's inception, DOS has revoked more than 900 visas based on 
requests from CBP on information uncovered after a visa was issued.
    ICE, CBP, and DOS have partnered to modernize DHS visa screening 
efforts. These efforts automate the flow of on-line visa information to 
DHS systems and provide the ability to send information back to DOS 
using an automated interface. ICE personnel currently deployed to the 
NTC will partner with CBP officers to expand current VSP efforts to 
enhance screening of visa applicants against DHS data world-wide. This 
screening will be conducted prior to the visa interview and complements 
DHS efforts to streamline the Security Advisory Opinion process of 
third agency checks on the highest-risk visa applicants world-wide, 
which has resulted in significant delays in visa issuance for some 
individuals.
The Counterterrorism and Criminal Exploitation Unit
    The Counterterrorism and Criminal Exploitation Unit (CTCEU) is the 
first National program dedicated to the enforcement of non-immigrant 
visa violations. Today, through the CTCEU, ICE proactively develops 
cases for investigation in cooperation with the Student and Exchange 
Visitor Program (SEVP) and the United States Visitor and Immigrant 
Status Indicator Technology (US-VISIT) Program. These programs enable 
ICE to access information about the millions of students, tourists, and 
temporary workers present in the United States at any given time, and 
to identify those who have overstayed or otherwise violated the terms 
and conditions of their admission.
    Each year, the CTCEU analyzes records of hundreds of thousands of 
potential status violators after preliminary analysis of data from the 
Student and Exchange Visitor Information System (SEVIS) and US-VISIT, 
along with other information. After this analysis, CTCEU determines 
potential violations that warrant field investigations and/or 
establishes compliance or departure dates from the United States. 
Between 15,000 and 20,000 of these records are analyzed in-house each 
month. Since the creation of the CTCEU in 2003, nearly 2 million such 
records using automated and manual review techniques have been 
analyzed. On average, ICE initiates approximately 6,000 investigative 
cases annually and assigns them to our special agents in the field for 
further investigation, resulting in over 1,800 administrative arrests 
per year.
    ICE special agents and analysts monitor the latest threat reports 
and proactively address emergent issues. This practice has contributed 
to ICE's counterterrorism mission by initiating or supporting high-
priority National security initiatives based on specific intelligence. 
The practice is designed to detect and identify individuals exhibiting 
specific risk factors based on intelligence reporting, including travel 
patterns, and in-depth criminal research and analysis.
    In order to ensure that the potential violators who pose the 
greatest threats to National security are given priority, ICE uses 
intelligence-based criteria, developed in close consultation with the 
intelligence and law enforcement communities. ICE assembles the 
Compliance Enforcement Advisory Panel (CEAP), which is comprised of 
subject matter experts from other law enforcement agencies and members 
of the intelligence community, who assist the CTCEU in keeping 
targeting methods in-line with the most current threat information. The 
CEAP is convened on a tri-annual basis to discuss recent intelligence 
developments and update the CTCEU's targeting framework, in order to 
ensure that the non-immigrant overstays and status violators who pose 
the gravest threats to National security are targeted.
    A recent ICE investigation in Los Angeles, California exemplifies 
how the CTCEU operates. In March 2011, the CTCEU received an INTERPOL 
blue notice concerning a person who traveled to the United States as a 
tourist. The person had an arrest warrant in connection to child 
pornography charges in Colombia. A week later, ICE special agents 
arrested the person who was admitted as a visitor and violated their 
terms of admission by working in the adult film industry. A similar 
example occurred in July 2011, when the CTCEU received an INTERPOL red 
notice for an El Salvadorian national wanted for murder. As a result of 
CTCEU data analysis and field investigation, ICE special agents 
arrested the subject in Baltimore, Maryland.
    More recently in January 2012, ICE Special Agents from the 
Washington, DC office arrested a Saudi Arabian national who was 
admitted as an F-1 nonimmigrant student and violated the terms and 
conditions of his admission. The individual was referred for 
investigation after his status was terminated in SEVIS for failure to 
maintain student status, as well as for possessing several indicators 
of National security concerns, including threatening to blow up the 
White House and the Saudi Arabian Cultural Mission to the United 
States.
    Likewise, in May 2010, ICE's Counterterrorism and Criminal 
Exploitation Group in San Francisco, initiated an investigation into 
Tri-Valley University (TVU) in Pleasanton, California. The criminal 
investigation led to the indictment and arrest of the organization's 
owner and four workers for visa fraud violations. The owner and 
employees were issuing immigration documents containing false 
statements and forged signatures, which falsely certified that the 
school's students were attending a full course of study. ICE Special 
Agents effected five criminal arrests and over 300 student violators 
were administratively arrested, consisting mostly of Indian nationals. 
In addition, ICE Special Agents seized one vehicle, filed lis pendens 
on five properties valued at approximately $3.2 million, and seized 
numerous bank accounts totaling almost $2 million that represented 
proceeds derived related to the illicit scheme.
    Similarly, in November 2011, the CTCEU Group in Los Angeles 
arrested Karena Chuang of Wright Aviation Academy (formerly Blue 
Diamond aviation) for encouraging the illegal entry of aliens for 
private financial gain. Wright Aviation Academy/Blue Diamond Aviation 
(BDA), a non-SEVP accredited flight school, was suspected by ICE's Visa 
Security Program of fraudulently recruiting and training foreign flight 
students from Egypt. The investigation revealed that Chuang applied to 
SEVP accredited schools, often without the student's knowledge, for the 
sole purpose of obtaining valid Forms I-20 (student visas). The 
students, in turn, used the Forms I-20 to get M-1 (vocational) visas to 
enter the United States to attend BDA. This investigation successfully 
upheld the integrity of the SEVP program through ICE's layered 
enforcement approach--identifying and disrupting visa fraud overseas, 
dismantling the transnational organization, and prosecuting the 
perpetrators in the United States.
Coordination with US-VISIT and Other DHS Components
    CTCEU also works in close collaboration with US-VISIT. US-VISIT 
supports DHS's mission to protect our Nation by providing biometric 
identification services to Federal, State, and local government 
decision makers to help them accurately identify the people they 
encounter, and determine whether those people pose a risk to the United 
States. DHS's use of biometrics under the US-VISIT program is a 
powerful tool in preventing identity fraud and ensuring that DHS is 
able to rapidly identify criminals and immigration violators who apply 
for visas, try to enter the United States, or apply for immigration 
benefits.
    Biometric information sharing between the Federal Bureau of 
Investigation's Criminal Justice Information Services (FBI-CJIS) and 
US-VISIT is the foundation of Secure Communities' use of Automated 
Biometric Identification System (IDENT)/Integrated Automated 
Fingerprint Identification System (IAFIS) interoperability.
    Through Secure Communities' use of IDENT/IAFIS interoperability, 
aliens--including those who have overstayed or otherwise violated their 
immigration status--who are encountered by law enforcement may be 
identified as immigration violators when fingerprints are submitted to 
the FBI-CJIS's biometric database, IAFIS, and then to DHS/US-VISIT's 
biometric database, IDENT. Once individuals are identified, ICE 
officials determine what enforcement action is appropriate, consistent 
with ICE's enforcement priorities. Currently, Secure Communities' use 
of this technology is deployed in over 2,300 jurisdictions in 46 States 
and territories.
    US-VISIT also analyzes biographical entry and exit records stored 
in its Arrival and Departure Information System to further support 
DHS's ability to identify international travelers who have remained in 
the United States beyond their periods of admission.
    ICE receives or coordinates non-immigrant overstay and status 
violation referrals from US-VISIT Mission Support Services from three 
unique sources, which include: the typical overstay violation; a 
biometric watch list notification; and a CTCEU Visa Waiver Enforcement 
Program (VWEP) nomination. The first type, Non-immigrant Overstay 
Leads, is used by the CTCEU to generate field investigations by 
identifying foreign visitors who violate the terms of their admission 
by remaining in the United States past the date of their required 
departure.
    A second type of lead is generated from biometric data collected by 
US-VISIT. US-VISIT routinely receives fingerprint records from a 
variety of Governmental sources and adds them to a biometric watch list 
of individuals of National security concern. These new watch list 
records are checked against all fingerprints in IDENT to determine if 
DHS has previously encountered the individual. If US-VISIT identifies a 
prior encounter, such as admission to the United States, the 
information is forwarded to ICE for review and possible field 
assignment. Similarly, US-VISIT monitors records for individuals who, 
at the time of admission to the United States, were the subject of 
watch list records that did not render the individuals inadmissible to 
the United States. Therefore, if such individuals overstay their terms 
of admission, information on the subjects is forwarded to ICE for 
review and possible referral to investigative field offices for follow-
up.
    The third type of lead pertains to the CTCEU's Visa Waiver 
Enforcement Program (VWEP). The VWP currently allows eligible nationals 
of 36 countries to travel to the United States without a visa and, if 
admitted, to remain in our country for a maximum of 90 days for tourist 
or business purposes. The Visa Waiver Program (VWP) is the primary 
source of non-immigrant visitors from countries other than Canada and 
Mexico. Visa-free travel to the United States builds on our close 
bilateral relationships and fosters commercial and personal ties among 
tourist and business travelers in the United States and abroad.
    Although the overstay rate from this population is less than 1 
percent, ICE created a program dedicated to overstays arising from this 
VWP population, given the large number of individuals in this category. 
Prior to the implementation of the VWEP in 2008, there was no National 
program dedicated to addressing overstays within this population. CTCEU 
provides a refined weekly list of individuals to US-VISIT for 
additional scrutiny, who have been identified as potential overstays 
who entered the United States under the VWP. In accord with its 
intelligence-based criteria, a relevant portion of this report is then 
imported into the CTCEU's internal lead tracking system for review and 
possible field assignment. One of the goals of this program is to 
identify those subjects that attempt to circumvent the U.S. immigration 
system by obtaining travel documents from Visa Waiver Countries.
Enhanced Biographic Exit
    In May 2011, at the direction of Secretary Napolitano, DHS's CT 
Coordinator organized an effort to ensure that all overstays, 
regardless of priority, receive enhanced National security and public 
safety vetting by the National Counterterrorism Center (NCTC) and CBP. 
As part of Phase 1 of this effort, Department components reviewed a 
backlog of 1.6 million unvetted potential overstay records based on 
National security and public safety priorities.
    As of last summer, DHS had a backlog of ``unreviewed overstays,'' 
comprised of system-identified overstay leads that did not meet 
criteria set by ICE for expedited high-priority review. Before this 
summer, these records would not have been examined, except in instances 
when the workload allowed it.
    The DHS ``overstay initiative'', begun over the summer of 2011 at 
the direction of the Secretary, reformed this effort. By leveraging 
capabilities within Customs and Border Protection's Automated Targeting 
System (ATS-P), as well as DHS's relationship with NCTC, DHS was able 
to conduct richer, more thorough vetting for National security and 
public safety concerns. This generated new leads for ICE, which 
previously would not have been uncovered.
    A beneficial by-product of this effort was the identification of 
efficiencies and cost savings gained through automation. Through this 
new automated approach, we can match and integrate relevant information 
from multiple systems in order to quickly and accurately identify 
overstays.
    Today, DHS has integrated these enhancements to its process for 
reviewing system-identified overstay leads and prioritizing them for 
review and targeted enforcement. Now, ALL overstay records are reviewed 
for National security and public safety concerns, and DHS is also 
leveraging existing automated capabilities to conduct automated reviews 
of all overstays (both normal priority and high-priority). All of this 
is done on a recurrent basis.
    Overall, what I have described constitutes the first phase of DHS's 
enhanced biographic exit capability. This ``enhanced exit'' plan 
improves DHS's ability to calculate overstays and reduce their 
occurrence in the future. It uses resources from a variety of DHS 
components and will provide benefits to several of these components, as 
well the DOS, as adjudicators of visa applications. When fully 
implemented, this enhanced exit program will eliminate any future 
backlog of unreviewed overstays, and allow DHS to prioritize and take 
action on overstays, focusing on National security and public safety.
    We have identified carry-over funding, and allocated it toward 
Phase II of this effort, which includes automating connections between 
data sources, and refining ICE's ability to more effectively target and 
prioritize overstay leads of concern. We expect to see these 
enhancements come on-line this summer.
    DHS has also identified its top priorities within Phase III of the 
enhanced biographic exit plan. This includes database modernization, 
further investments in targeting and prioritization capabilities, 
increased functionality between biometric and biographic repositories, 
as well as document validation. As investments in the future phases of 
this capability come on line, DHS will have increased its ability to 
``close out'' overstay records using automated means.
    The Department will have also increased its data quality and 
expanded its data sources, both of which will increase its ability to 
``close'' records before they are referred to an investigator.
    Finally, these upgrades will have enhanced DHS's ability to draw on 
capabilities across the Department for further manual review and 
targeting for enforcement action.
    DHS also remains committed to introducing a biometric component to 
the exit process. The enhanced exit plan also incorporates biometric 
elements, allowing DHS personnel to more efficiently connect biometric 
identifiers (fingerprints and photographs) with biographic information 
residing within intelligence community and law enforcement databases. 
DHS has directed the Science and Technology Directorate to establish 
criteria and promote research for emerging technologies that would 
provide the ability to capture biometrics at a significantly lower 
operational cost.
    In the mean time, the Department is taking action to secure our 
borders today, by making strategic security investment decisions that 
prioritize those capabilities needed for the implementation of a future 
biometric exit system while providing security value now.
    This entire process has illustrated something fundamental, which is 
that dealing with the overstay population is a challenge that confronts 
all of DHS, not just any one component. US-VISIT tracks the overstay 
population through ADIS. CBP, as the custodian of our borders, taps 
into information about traveler movements, and is increasingly at the 
center of DHS's vetting and targeting activities. ICE bears the burden 
of taking enforcement action.
    Left up to any one component, DHS action would be incomplete, but 
by harmonizing efforts across the Department and by taking advantage of 
unique skills and capabilities, we are able to put together a plan that 
enhances the integrity of our immigration system.
ICE's Presence Overseas and Coordination with DOS
    Stopping a threat before it reaches our shores is an important 
priority that ICE supports internationally. Through our Office of 
International Affairs, we have personnel in 70 offices in 47 countries. 
ICE personnel in these offices collaborate with our foreign 
counterparts and Federal partner agencies in joint efforts to disrupt 
and dismantle transnational criminal organizations engaged in money 
laundering, non-drug contraband smuggling, weapons proliferation, 
forced child labor, human rights violations, intellectual property 
rights violations, child exploitation, human smuggling and trafficking, 
and many other violations. Additionally, ICE facilitates the 
repatriation of individuals with final orders of removal, returning 
violators to their home countries.
    Effective border security requires broad information sharing and 
cooperation among U.S. agencies. On January 11, 2011, ICE signed a 
memorandum of understanding (MOU) outlining roles, responsibilities, 
and collaboration between ICE and the DOS Bureaus of Consular Affairs 
and Diplomatic Security. The MOU governs the day-to-day operations of 
ICE agents conducting visa security operations at U.S. embassies and 
consulates abroad. To facilitate information sharing and reduce 
duplication of efforts, ICE and DOS conduct collaborative training and 
orientation prior to overseas deployments. Once they are deployed to 
overseas posts, ICE and DOS personnel work closely together in working 
groups, meetings, training, and briefings, and engage in regular and 
timely information sharing. The VSP's presence at U.S. embassies and 
consulates brings an important law enforcement element to the visa 
review process. Additionally, this relationship serves as an avenue for 
VSP personnel to assist Consular Officers and other U.S. Government 
personnel in recognizing potential security threats in the visa 
process.
    We are engaged with our counterparts at DOS in determining a common 
strategic approach to the broader question of how best to collectively 
secure the visa issuance process. We look forward to continuing to 
report back to you with updates on this process.
                               conclusion
    DHS has made significant progress in preventing terrorists from 
exploiting the visa process. We will continue to work closely with our 
international, Federal, State, local, and Tribal partners to combat 
visa fraud and protect the integrity of our visa security system.
    Thank you again for the opportunity to testify today and for your 
continued support of DHS and its law enforcement mission.
    We would be pleased to answer any questions at this time.

    Mrs. Miller. Thank you very much.
    The Chairwoman now recognizes Mr. Edge for his testimony.

STATEMENT OF PETER T. EDGE, DEPUTY ASSOCIATE DIRECTOR, HOMELAND 
 SECURITY INVESTIGATIONS, IMMIGRATION AND CUSTOMS ENFORCEMENT, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Edge. Good morning, Chairman Miller, Ranking Member 
Cuellar, and other distinguished Members of the subcommittee. 
Thank you for inviting me to appear before you today along with 
my counterparts, Mr. Cohen and Mr. Donahue, to discuss our 
collective efforts to prevent the exploitation of our visa 
system by terrorists and criminals.
    I would also ask that my complete testimony be accepted 
into the record.
    Mrs. Miller. Without objection.
    Mr. Edge. Visa overstays and other forms of immigration 
status violations bring together critical areas of my agency's 
mission, National security, and immigration enforcement. We 
recognize that those who pose National security threats may 
seek to commit immigration benefit fraud to enter or remain in 
the United States. For that reason, we work hard to detect and 
deter immigration fraud and to continually enhance our anti-
fraud efforts.
    ICE exercises criminal authority in the detection and 
deterrence of immigration fraud while our partner agency, 
USCIS, exercises administrative authority. This strategy 
essentially allows us to concentrate our efforts on major fraud 
conspiracies and other cases of National security or public 
safety interest, which allows USCIS to address the majority of 
immigration benefit fraud cases administratively.
    As you know, DHS is charged with assisting in the 
identification of visa applicants who seek to enter the United 
States for illegitimate purposes, including criminal offenses 
and terrorism-related activities. The visa adjudication process 
often presents the first opportunity to assess whether a 
potential nonimmigrant visitor or immigrant poses a threat to 
our Nation.
    ICE's Visa Security Program is one of--program focused on 
minimizing these global risks. Through the Visa Security 
Program ICE employs trained special agents overseas to high-
risk visa activity posts to identify potential terrorists and 
criminal threats before they reach the United States. These 
agents conduct targeted, in-depth interviews of individual visa 
applications and applicants prior to issuance and recommend 
refusal or revocation of applications, when warranted, to 
consular officers.
    ICE now conducts Visa Security investigations at 19 high-
risk visa adjudication posts in 15 countries. In fiscal year 
2012 to date, the Visa Security Program has screened over 
452,000 visa applicants and, in collaboration with our State 
Department colleagues, determined that over 121,000 required 
further review. After reviewing these applications ICE 
identified derogatory information on more than 4,700 
applicants.
    Another program at ICE dedicated to enforcing non-immigrant 
visa violations is the Counterterrorism and Criminal 
Exploitation Unit, or CTCEU. Through the CTCEU, ICE proactively 
develops cases for investigation in cooperation with the 
Student and Exchange Visitor Program and the US-VISIT Program. 
Both programs enable ICE to access information about the 
millions of students, tourists, and temporary workers present 
in this country at any given time and to identify those who 
have overstayed or otherwise violated the terms and conditions 
of their admission.
    Each year the CTCEU analyzes records of hundreds of 
thousands of potential status violators after preliminary 
analysis of data from the Student and Exchange Visitor 
Information System, also known as SEVIS, as well as from US-
VISIT. After this analysis, the CTCEU determines potential 
violations that warranted field investigations and/or 
establishes compliance or departure dates from the United 
States.
    Since the unit's creation in 2003, nearly 2 million such 
records using automated and manual review techniques have been 
analyzed. On average, ICE initiated approximately 6,000 
investigative cases annually and assigns them to our special 
agents in the field for further investigation. This has 
resulted in over 1,800 administrative arrests per year.
    In January 2012, for example, ICE special agents from our 
Washington, DC office arrested a Saudi Arabian national who was 
admitted as an F-1 nonimmigrant student and violated the term 
and condition of his admission. The individual was referred for 
investigation after his status was terminated in SEVIS for 
failure to maintain student status as well as for possessing 
indicators of National security concerns, including threatening 
to blow up the White House and the Saudi Arabian Cultural 
Mission to the United States.
    ICE has made significant progress in preventing terrorists 
from exploiting the visa process. We will continue to work 
closely with our law enforcement partners to combat visa fraud 
and protect the integrity of our visa security system.
    Thank you again for the opportunity to testify today, and I 
would be pleased to answer any questions that you may have.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes Mr. Donahue for his 
testimony.

 STATEMENT OF DAVID T. DONAHUE, DEPUTY ASSISTANT SECRETARY OF 
      STATE FOR CONSULAR AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Donahue. Good morning, Madam Chairwoman, Ranking Member 
Cuellar, and distinguished Members of the subcommittee. I have 
been involved as a--with visas for the majority of my 29-year 
career with the State Department and I appreciate this chance 
to testify here today, and I have submitted written comments 
for the record.
    The Department of State is dedicated to the protection of 
our borders through a layered approach to border security. This 
approach enables us and our partners in DHS to track and review 
the visa eligibility and status of foreign visitors from their 
visa applications throughout their travel to, sojourn in, and 
departure from the United States.
    We are constantly refining and updating the technology that 
supports the adjudication and production of U.S. visas. The 
Department has developed and implemented an intensive visa 
application and screening process requiring personal interviews 
in most cases, employing analytic interview techniques, and 
incorporating multiple biographic and biometric checks. This is 
all supported by a sophisticated global information technology 
network that shares data among the Department and Federal law 
enforcement and intelligence agencies.
    Security remains our primary mission. Every visa decision 
is a National security decision.
    Our new on-line visa application forms provide consular 
officers and fraud prevention officers, and soon our 
intelligence and law enforcement partners, the opportunity to 
analyze data in advance of the visa interview, including the 
detection of potential non-biographical links to derogatory 
information. We have ambitious plans to screen more of this 
data with our partners in the law enforcement and intelligence 
communities to make the visa system even more secure.
    In addition to biographic checks the Department performs 
checks on two biometric identifiers. Most visa applicants' 
fingerprints are screened against DHS and FBI databases. We 
also use facial recognition technology to screen visa 
applicants against a watch list of photos obtained from the 
Terrorist Screening Center as well as visa applicant photos 
contained in the Consular Consolidated Database.
    Our vast database of visa information is fully available to 
other agencies. It is specifically designed to facilitate fast, 
accurate, and comprehensive sharing to meet the needs of a 24/7 
global screening environment. In return, we have unprecedented 
levels of cooperation with law enforcement and intelligence 
agencies and benefit from their capabilities and resources in 
ways that were not possible at the time of 9/11.
    Let me turn to our coordination with DHS to address the 
overstay issue. Consular officers at posts abroad use arrival 
and departure data from--for non-U.S. citizen travelers 
contained in the DHS Arrival and Departure Information System, 
ADIS, to help determine whether an applicant who visited the 
United States previously departed by the end of his or her 
authorized period of stay and whether the applicant qualifies 
for a visa. The consular officer also use their knowledge of 
the local language, culture, and conditions as part of their 
evaluation of an applicant's eligibility for a U.S. visa.
    ADIS overstay information is also included in the 
revocation recommendations the Department receives daily from 
CBP's National Targeting Center and our consular sections 
abroad. Whether the overstay information exists in isolation or 
as one of multiple factors, the Department considers the 
information as part of our visa revocation process. If a 
subject whose visa has been revoked is in the United States our 
colleagues from DHS are responsible for removal. As Mr. Cuellar 
mentioned, we are working very closely with the--with ICE and 
Director Morton to do everything we can to help with those 
removal processes.
    Consular officers have detailed instructions on visa 
revocation procedures and reinforce standing guidance on their 
discretionary authority to deny visas under 214-B of the 
Immigration and Nationality Act with specific reference to 
cases that raise security and other serious concerns. We have 
created a dedicated revocations unit in Washington that focuses 
exclusively on ensuring that any derogatory information on a 
U.S. visa holder is rapidly evaluated and acted on.
    Distinguished Members of the committee, our current layered 
approach to security screening, in which each agency applies 
its particular strengths and expertise, best serves our border 
security agenda while furthering traditional U.S. interests in 
legitimate travel, trade promotion, and the exchange of ideas. 
The United States must meet both goals to guarantee our long-
term security.
    Thank you, and I am ready to answer your questions.
    [The statement of Mr. Donahue follows:]
                 Prepared Statement of David T. Donahue
                             March 6, 2012
    Good afternoon Madam Chairwoman Miller, Ranking Member Cuellar, and 
distinguished Members of the subcommittee. I thank you for this 
opportunity to update you on the steps we have taken to increase the 
security of the visa process.
    The Department of State (the Department) is dedicated to the 
protection of our borders, and has no higher priority than the safety 
of our fellow citizens. We are the first line of defense in border 
security because the Department is often the first Government agency to 
have contact with foreign nationals wishing to visit the United States. 
We are committed, along with our partner agencies, to a layered 
approach to border security that will enable the U.S. Government to 
track and review the visa eligibility and status of foreign visitors 
from their visa applications throughout their travel to, sojourn in, 
and departure from, the United States. We are equally committed to 
facilitating legitimate travel, and providing efficient and courteous 
visa adjudication. The Bureau of Consular Affairs is successfully 
meeting the challenge of increasing world-wide demand for U.S. visas 
without compromising the security of our Nation's borders.
    At 222 visa-adjudicating embassies and consulates around the world, 
a highly-trained corps of consular officers and support staff processes 
millions of visa applications each year, facilitating legitimate travel 
while protecting our borders. Consular officers adjudicated 8.8 million 
applications and issued more than 7.5 million visas in fiscal year 
2011, up 16 percent from the 6.4 million visas issued in fiscal year 
2010. We have experienced tremendous increases in demand for visas in 
some of the world's fastest-growing economies. We are issuing as many 
visas as we did in 2000, even though nine more countries have joined 
the Visa Waiver Program since then.
     data sharing leads to a more secure visa adjudication process
    The Department has developed and implemented an intensive visa 
application and screening process, requiring personal interviews in 
most cases; employing analytic interview techniques; and incorporating 
multiple biographic and biometric checks, all supported by a 
sophisticated global information technology network that shares data 
among the Department and Federal law enforcement and intelligence 
agencies. Security remains our primary mission--every visa decision is 
a National security decision.
    We constantly refine and update the technology that supports the 
adjudication and production of U.S. visas. The world-wide rollout of 
our on-line non-immigrant visa application form is complete, and we are 
currently piloting the on-line immigrant visa application form. These 
new on-line forms provide consular officers, as well as intelligence 
and law enforcement agencies, the opportunity to analyze data before 
applicants appear for their interviews. While the forms offer foreign 
language support, applicants are required to answer in English, to 
facilitate data searches and information sharing between the Department 
and other Government agencies. The new application forms are ``smart,'' 
meaning that certain answers to questions will trigger subsequent 
questions. The system will not accept applications if the security-
related questions have not been answered completely, and inappropriate 
or unacceptable answers are flagged to ensure that consular officers 
address them in the interview.
    The Immigration and Nationality Act (INA) requires our consular 
officers to interview first-time visa applicants aged 14 through 79 in 
person. We may waive the interview requirement for diplomatic and 
official staff of foreign governments, as well as for certain other 
applicants in very limited circumstances. In addition, we employ 
strong, sophisticated name-searching algorithms to ensure matches 
between names of visa applicants and any derogatory information 
contained in the 42.5 million records found in the Consular Lookout and 
Support System (CLASS), our on-line database of visa lookout records.
    CLASS has grown more than 400 percent since 2001. Almost 70 percent 
of CLASS records come from other agencies, including DHS, the FBI, and 
the DEA. CLASS also includes unclassified records regarding known or 
suspected terrorists (KSTs) from the Terrorist Screening Database 
(TSDB), which is maintained by the FBI's Terrorist Screening Center 
(TSC) and contains data on KSTs nominated by all U.S. Government 
sources.
    We also screen visa applicants' names against the historical visa 
records in our Consular Consolidated Database (CCD). A system-specific 
version of the automated CLASS search algorithm runs the names of all 
visa applicants against the CCD to check for any prior visa 
applications, refusals, or issuances. DHS and other Federal agencies 
have broad access to the CCD, which contains more than 151 million 
immigrant and non-immigrant visa records covering the last 13 years. We 
make our visa information available to other U.S. Government agencies 
for law enforcement and counterterrorism purposes, we specifically 
designed our systems to facilitate comprehensive data sharing with 
these entities, and they use this access extensively. For example, in 
January 2012, more than 20,000 officers from DHS, the FBI, and the 
Departments of Defense, Justice, and Commerce submitted more than 2 
million visa record queries in the course of conducting law enforcement 
and/or counterterrorism investigations.
    In addition to biographic checks, the Department also performs 
checks on two biometric identifiers. Visa applicants' fingerprints are 
screened against DHS and FBI systems, which between them contain the 
available fingerprint records of terrorists, wanted persons, 
immigration law violators, and criminals. In 2011, consular posts 
transmitted more than 8.6 million fingerprint submissions to these 
systems, and received from them more than 221,000 derogatory and 
criminal history records. We transmit the fingerprints taken during the 
visa interview process to U.S. Customs and Border Protection (CBP) 
officers at ports of entry, to enable them to match the fingerprints of 
persons entering the United States and confirm their identity.
    We use facial recognition technology to screen visa applicants 
against a watch list of photos of known and suspected terrorists 
obtained from the TSC, as well as the entire gallery of visa applicant 
photos contained in our CCD. Facial recognition screening has proven to 
be another effective way to combat identity fraud.
    Data sharing requires intense, on-going cooperation from other 
agencies. We have successfully forged and continue to foster 
partnerships that recognize the need to supply accurate and speedy 
screening in a 24/7 global environment. As we implement process and 
policy changes, we are always striving to add value in both border 
security and operational results. Both dimensions are important in 
supporting the visa process.
                          overstay information
    In April 2008, consular officers at posts abroad obtained access to 
arrival and departure data for non-U.S. citizen travelers contained in 
the DHS Arrival Departure Information System (ADIS). We began running 
automated ADIS checks for every visa applicant in June 2011. Officers 
in the field use ADIS data to help determine whether an applicant who 
visited the United States previously departed by the end of his or her 
authorized period of stay. If ADIS indicates a traveler departed after 
this period, or there is no departure shown at all, the officer works 
to confirm whether the individual overstayed his or her previous period 
of admission. Since land border departures are not usually recorded in 
ADIS, and airlines have not always provided departure manifests, ADIS 
information alone does not confirm or refute an overstay.
    If a consular officer confirms a prior overstay of any duration, 
the applicant may be unable to overcome the presumption of immigrant 
intent. Overstays of 181 to 364 days may make an applicant ineligible 
to reenter the United States for 3 years. Overstays of 365 days or more 
may make an applicant ineligible to reenter the United States for 10 
years.
        security advisory opinions and the visa security program
    In coordination with Federal law enforcement and intelligence 
agencies, the Department has instituted particular measures to process 
higher-risk visa applications. Our Security Advisory Opinion (SAO) 
mechanism provides consular officers input from Washington on security-
related issues relating to pending visa applications. Department 
guidance explains when a consular officer must request an SAO. Most are 
triggered by a CLASS watch list hit; others are required as a matter of 
policy or submitted by the consular officer per his or her discretion. 
Consular officers receive extensive training on the SAO process, which 
requires them to suspend visa processing pending interagency review of 
the case and additional guidance. SAO requests are routed 
electronically to relevant Federal intelligence and law enforcement 
agencies. Consular officers submitted more than 366,000 SAO requests in 
fiscal year 2011.
    The Visa Security Program (VSP), under which DHS deploys U.S. 
Immigration and Customs Enforcement (ICE) special agents to conduct 
visa security screening and investigations at certain overseas consular 
posts, is a valuable component of the U.S. Government's overall policy 
of protecting our borders. We have a close and productive partnership 
with DHS, which has authority for visa policy under section 428 of the 
Homeland Security Act, and are fully supportive of the mission and 
future of the VSP. ICE/VSP is present at 19 visa-issuing posts in 15 
countries.
                            visa revocation
    DHS is responsible for removing subjects of visa revocations who 
are present in the United States, whether or not they have overstayed 
the period of legal presence. The Department has broad and flexible 
authority to revoke visas and we use that authority widely to protect 
our borders. Since 2001, the Department has revoked approximately 
60,000 visas for a variety of reasons, including nearly 5,000 for 
suspected links to terrorism. Cases for revocation consideration are 
forwarded to the Department by our consular offices overseas, NTC, and 
other entities. As soon as information is established to support a 
revocation (i.e., information that could lead to an inadmissibility 
determination), a ``VRVK'' entry code showing the visa revocation is 
added to CLASS, as well as to biometric identity systems, and then 
shared in near-real time (within about 15 minutes) with the DHS lookout 
systems used for border screening. As part of its enhanced ``Pre-
Departure'' initiative, CBP uses these VRVK records, among other 
lookout codes, to recommend that airlines should not board certain 
passengers on flights bound for the United States. Almost every day, we 
receive requests to review and, if warranted, revoke any outstanding 
visas for aliens for whom new derogatory information has been 
discovered since the visa was issued. Our Operations Center is staffed 
24 hours a day, 7 days a week, to address urgent requests, such as when 
a potentially dangerous person is about to board a plane. In those 
circumstances, the State Department can and does use its authority to 
revoke the visa, and thus prevent boarding. ADIS overstay information 
is also included in the visa revocation recommendations the Department 
receives daily from the NTC and our consular sections abroad. Whether 
the overstay information exists in isolation or as one among multiple 
factors, the Department considers the information as part of our visa 
revocation process.
    Most revocations are based on new information that has come to 
light after visa issuance. Because individuals' circumstances change 
over time, and people who once posed no threat to the United States can 
become threats, revocation is an important tool. We use our authority 
to revoke a visa immediately in circumstances where we believe there is 
an immediate threat. At the same time, we believe it is important not 
to act unilaterally, but to coordinate expeditiously with our National 
security partners in order to avoid possibly disrupting important 
investigations.
                               conclusion
    We believe that U.S. interests in legitimate travel, trade 
promotion, and educational exchange are not in conflict with our border 
security agenda and, in fact, further that agenda in the long term. Our 
long-term interests are served by continuing the flow of commerce and 
ideas that are the foundations of prosperity and security. Acquainting 
people with American culture and perspectives remains the surest way to 
reduce misperceptions about the United States. Fostering academic and 
professional exchanges keeps our universities and research institutions 
at the forefront of scientific and technological change. We believe the 
United States must meet both goals to guarantee our long-term security.
    Our global presence, foreign policy mission, and personnel 
structure give us singular advantages in executing the visa function 
throughout the world. Our authorities and responsibilities enable us to 
provide a global perspective to the visa process and its impact on U.S. 
National interests. The issuance and refusal of visas has a direct 
impact on our foreign relations. Visa policy quickly can become a 
significant bilateral problem that harms broader U.S. interests if 
handled without consideration for foreign policy equities. The conduct 
of U.S. visa policy has a direct and significant impact on the 
treatment of U.S. citizens abroad. The Department of State is in a 
position to anticipate and weigh all those factors, while ensuring 
border security as our first priority.
    The Department has developed and implemented an intensive visa 
application and screening process supported by a sophisticated global 
information technology network. We have visa offices in virtually every 
country of the world, staffed by consular officers drawn from the 
Department's professional, mobile, and multilingual cadre of Foreign 
Service Officers. These officials are dedicated to a career of 
worldwide service, and provide the cultural awareness, knowledge, and 
objectivity to ensure that the visa function remains the front line of 
border security. Each officer's experience and individual skill set are 
enhanced by an overall understanding of the political, legal, economic, 
and cultural development of foreign countries in a way that gives the 
Department of State a special expertise over matters directly relevant 
to the full range of visa ineligibilities.
    This concludes my testimony today. I will be pleased to take your 
questions.

    Mrs. Miller. Thank the gentleman.
    I thank all of the witnesses for your testimony today.
    I guess I would start with Mr. Edge. As we were talking 
about Khalifi, this individual that apparently had some run-ins 
with law enforcement, I think in 2005--we were looking through 
some of the various information before we had our hearing 
here--and as we mentioned during the testimony, what a great 
program Secure Communities is. Do you think if Secure 
Communities was in place that it would have flagged this 
individual, you know, if he was to be picked up by just--in a 
regular line of law enforcement during the course of everyday 
duties? Do you think that the Secure Communities would have 
picked this individual up, and are you finding that Secure 
Communities is really having a fantastic impact now on your 
ability to do so?
    Mr. Edge. Well, I think when----
    Mrs. Miller. Just press the button there.
    Mr. Edge. Yes. When Mr. Khalifi was arrested in the early 
part of 2000 we did not have a mechanism in place to be able to 
communicate once somebody's fingerprints were rolled when 
someone was arrested, but we are working towards that these 
days with US-VISIT and our ability to run fingerprints and get 
information from those who are arrested at the State and local 
level. This isn't something that would have risen to the 
Federal level at the time of his first arrest. I believe they 
were even misdemeanor charges in a State system in Virginia.
    So I think that as we move forward the level of 
communication between our State and local counterparts, whether 
it is through Secure Communities or just by the various 
programs we have and our databases that are connected, we will 
be able to at least identify those people who are connected 
into the immigration system.
    Mrs. Miller. No. That is really something that, again, 
referencing the 9/11 Commission, one of their recommendations--
excuse me--that we keep in mind all the time is when they talk 
about how--we need to move from the need to know to the need to 
share information with the various agencies, and at every level 
of government, whether it is the Federal level, the State 
level, the county level, the local level, et cetera, with all 
of these kinds of things.
    But one of the things that we are focusing on, obviously, 
in this subcommittee hearing is how we try to bring more 
attention to the fact that, as I mentioned, over 40 percent of 
all of the illegals that are in the country are here on visa 
overstays, and as we have talked about, didn't come across the 
desert and the southern edge of our border, which is where 
everybody seems to think that all of the illegals came from.
    So you have all of these visa overstays and it really is 
for the Congress, I think, to try to prioritize our funding and 
focus the funding that we have, understanding the constrictions 
that we have with the financial crisis that is facing our 
Nation, but we are looking through your budget, for instance, 
with ICE, and I am not sure if this is true--maybe you can tell 
me what percentage of your--of the budget that ICE has that you 
are focusing on visa, for instance. You probably don't have 
those exact numbers, but we were sort of trying to figure it 
out and it looks like it is a small percentage--maybe 3 to 5 
percent of the budget that is even focused on visa overstays.
    So I guess I would ask you to try to answer that the best 
if you could, or how do you identify overstays that have been 
in the country for over 13 years, like this particular 
individual? Do you consider the country of origin? What is your 
matrix, actually, for looking at these things?
    Mr. Edge. Well, Madam Chairwoman, that is a complicated 
question in that our investigative responsibilities are very 
vast. We have a lot of disciplines that we are empowered to 
investigate, from human trafficking, document and benefit 
fraud, narcotics smuggling, a wide variety of different 
investigative areas that we are responsible for. Through 
conducting those investigations we do and we are able to 
identify visa overstays.
    If it is someone who is not in contact with our 
investigative process and homeland security investigations it 
is certainly possible that we would not come in contact with 
them if they had been in the country for a very long time. But 
certainly, given the communication that we have and the various 
databases that we are working with today, and through our CTCEU 
process, as Ranking Member Cuellar mentioned earlier, we are 
certainly in a better position to identify these overstays in 
the normal course of business.
    Mrs. Miller. Mr. Cohen, I took some notes when you were 
talking there. You were saying that your new system that you 
have that you now have the ability to track by countries, and 
as you are vetting sort of the backlog that you testified to 
the committee--subcommittee for previously back in September, 
how many overstays do you think you have from special interest 
countries, or how are you doing with identifying from 
particular countries?
    As you also mentioned, the Secretary, when she was 
testifying here earlier, said that the system that they--that 
you are operating under right now is a good bridge to what 
ultimately all of our mutual goal is, to have a really robust 
biometric system. So I guess I am just, again, trying to get a 
feel for what your matrix is for what you are looking at with 
the various special countries. As my colleague was mentioning, 
all of the various countries and the days it is rather 
startling to look at some of those kind of things, and 
obviously that is an indicator that we all need to be looking 
at.
    Mr. Cohen. Thank you, Madam Chairwoman.
    So it is a work in progress still, so we are continuing to 
implement these improvements that I referenced in my opening 
statement. I will get back to the subcommittee with regard to 
specific numbers on the special interest countries, but your 
previous question to Mr. Edge and your question to me raises 
sort of the key issue here, which is up until this effort there 
was no systematic effort by the Department to integrate all of 
these various repositories of information, in which information 
vital to determining whether someone had actually departed the 
country, had changed their status, was in custody for another 
crime, or was actually an overstay, and they weren't linked 
together so it made it very difficult.
    So in the case of Mr. Khalifi, the information--and others 
that went into overstay status in the late 1990s and early 
2000, prior to the development of US-VISIT--the information 
repository which reflected that they were potentially overstay 
was TECS--Treasury Enforcement Communication System. TECS 
system was a system that part of the data it collected were 
border crossings, so we could tell when somebody came into the 
country and we could also tell if they left the country; that 
was in TECS. However, most local police departments during that 
time didn't have access to TECS, and unless they had some 
reason to believe that an individual detained for some other 
offense was, in fact, an immigration violator, it would be rare 
that they would call INS and ask them to do a--what we would 
call a TECS check.
    Through the system enhancements that I described earlier we 
are automating that process, so today if someone is arrested 
for any type of offense part of the query that will take place 
through both the Secure Communities program and through the 
enhancements that I have been describing will be an automatic 
check of immigration systems, will be a check of TECS, as well. 
So the chances are greatly enhanced that today if somebody were 
to be booked in for a minor drug offense--or a serious traffic 
violation, even, the person's immigration status would come to 
our attention.
    Mrs. Miller. Thank you.
    Chairwoman recognizes the Ranking Member.
    Mr. Cuellar. Thank you, Madam Chairwoman.
    Without going over the numbers over those countries that 
are a little bit less cooperative in working with us, you know, 
you have--I believe the last time your managing director of 
visa services was back here with us, and I think it was in 
November 2011, he said that there are some countries like 
Brazil and China that there is increase--there is an increase 
in demand for visas--travel visas.
    Let's talk about China, since it is one of those countries 
that has not been very--what incentives--or does it make sense 
that if a country is not taking back those folks that they are 
supposed to be taking back and they are delaying, why are we 
going to be increasing their visas? I understand travel, and 
business, and--I understand all that. But just specifically in 
this issue, why are we increasing the number of visas but at 
the same time, at the back end, for the folks that they are 
supposed to be taking back, they are still delaying them by 
large numbers itself.
    I guess--and I can understand--I can already guess what you 
are going to say and I understand all that, but what 
suggestions do you have? Because I am specifically looking at--
to be quite honest, we brought this up--I mean, there have been 
some steps--we are looking at putting some appropriation 
language, and hopefully that will direct you all to those 
particular countries.
    Do you have any suggestions as to what we can look at to 
specifically help you do that? I know the State Department 
might be in a difficult position to work with those countries, 
but what can we do? What sort of language would be appropriate, 
understanding it is going up but understand at the back end 
those countries--why have we provided that incentive to them?
    Mr. Donahue. Well, first of all, let me say that we agree 
with you entirely that the wait times for these documents are 
unacceptable and we have been working very closely with 
Director Morton, at ICE. Our assistant secretary--they have 
formed a group; they go out and meet with the ambassadors. 
Also, in our capitals overseas we are meeting with these senior 
officials there. Our ambassador in China, and we have a new 
ambassador going out to India, hopefully, if confirmed. These 
are all opportunities to make it clear to those governments how 
important this is to our bilateral relationship and to their 
obligations to do this.
    We do have authority, as you know, under the INA, to 
address this, also, and we feel like that is the last step we 
want to exhaust, as we have discussed in your office, all the 
diplomatic ways to get countries to cooperate with us on this. 
On the countries that are sending large numbers of travelers to 
the United States we--it is a delicate balance. I don't have 
any answer.
    These are real jobs that they are creating in the United 
States when they come here. They stay in the hotels. Chinese, 
they say, spend $6,000 a day in the United States while they 
are here. They buy our goods and services. So it is very 
difficult to do things--and for China it is very hard to put 
any more--make it more difficult because they only receive 1-
year visas. Their country doesn't care whether their citizens 
come here; it is more that we care that they come here and 
visit our great places, attend our universities paying full 
tuition, they buy our goods and services, our tractors, all 
those things. So they have very little incentive to change 
their ways and we have all good reasons for our economy to 
attract them here.
    Mr. Cuellar. Yes. I understand, and I--you know, I 
appreciate the visits that we had and I understand all of that. 
But there has got to be something we can do. I mean, we just 
can't--and I--again, I appreciate--I am complimenting all three 
of you all and your--the men and women that work for all of you 
all. You are all doing a good job. I am not criticizing you.
    Is there anything we can try to help you? Really, the only 
way I am looking at this, because I don't know about 
reauthorization or any bill that is moving, but the 
appropriation bill, one way or the other, is going to pass.
    Mr. Donahue. Right.
    Mr. Cuellar. So we can talk about it later, but I am asking 
all three of you all if you all want to talk later, or, you 
know, with the Chairwoman or myself. We have got to put some 
language there, but I don't want to put some language that will 
be counterproductive. But I just--you know, I just don't see 
why we keep feeding what they have biting on the other hand on 
that.
    But I understand international education; I understand and 
I appreciate all that. I know it is very, very difficult, but 
there has got to be something. You know, China might be a 
special situation. What about Bangladesh? What about the other 
countries? I mean, not everybody is on the same level as China.
    But anyway, I would look forward to working with you on 
some language, and again, I am not being critical. I really 
appreciate the prioritization work that both the State 
Department and Homeland is doing. But I am asking you to give 
me some suggestions.
    Mr. Donahue. All right. We will see what we can suggest to 
you and we will continue working on this. This is a top 
priority for Assistant Secretary Jacobs.
    Mr. Cuellar. Okay.
    Thank you to all three of you. I appreciate the work that 
you all are doing.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman.
    Appreciate the work you guys are doing and I thank the 
Chairwoman for having this very valuable hearing today.
    Mr. Edge, what does ICE stand for?
    Mr. Edge. Immigration and Customs Enforcement.
    Mr. Duncan. Okay. I am going to leave customs out of this 
because we are talking about immigration. Immigration 
enforcement. Immigration enforcement.
    At what point is someone unlawfully present in the United 
States?
    Mr. Edge. When they enter the country illegally, sir.
    Mr. Duncan. So if they overstayed their visa that is not 
unlawful?
    Mr. Edge. That is unlawful.
    Mr. Duncan. Okay. So if you cross the Southern Border 
without coming through a natural port of entry you illegally 
enter into the country, you are unlawfully in the country. If 
you overstay your visa you are unlawfully in the country, based 
on what you just said.
    So Chairwoman asked a question or maybe made a statement--
how many visa overstays do we have present in the country at 
any given time?
    Mr. Edge. I don't have an exact number on how many are 
presently in the country at this time.
    Mr. Duncan. Is there a percentage of the illegal aliens, 
would you say--50 percent, 30 percent, 10 percent?
    Mr. Edge. I will be able to give you a number of--between 
2009 and 2011 37,000 both criminal and non-criminal aliens have 
been removed and those were overstays.
    Mr. Duncan. How many have been removed. Okay.
    It would seem to me that if you were going to think about 
committing a terrorist act in this country that--and you were a 
foreign national you would apply for a visa, and if you kept 
your nose clean and you didn't have a criminal record in the 
country, you weren't a person of interest that would pop up on 
some sort of prescreening that you would be able to get a visa 
to come to this country and then you could just overstay it and 
work on the terrorist act, like we saw recently with the D.C. 
bomber.
    So I want to commend the State Department, Mr. Donahue, for 
your process of prescreening applicants for visas. That is 
really where your testimony stayed.
    But in 1996 Congress said, ``You know, we are going to 
create a biometric screening for exit and entry into this 
country so we will know when folks enter and we will know when 
they leave.'' I have traveled around the world in a lot of 
different countries where you have to give biometric data--
fingerprints, whether it is just one finger or a complete hand.
    So 1996, that has been about 16 years that we have had this 
focus. The 9/11 Commission Report revisited that.
    So you all do a good job prescreening applicants for visas 
if that person is a person of interest or may have a background 
in that country that raises suspicions, or whatever, they would 
be denied a visa. But if they haven't had that background they 
would probably be given a visa.
    So the problem, I think, is us having a reliable system in 
place for knowing when foreign nationals exit this country that 
have come on visas. So, after 16 years and this instance from 
Congress, I ask the State Department, when are we going to 
complete this process of an entry and exit biometric screening?
    Mr. Donahue. The----
    Mr. Duncan. Which I think begins with the State Department.
    Mr. Donahue. It begins with the State Department and we 
collect biometrics on almost all applicants who are coming to 
the United States. Those are immediately transmitted to the 
Department of Homeland Security and are used for each and every 
person who enters the United States--not each and every, but 
almost all people who enter the United States then submit, as 
you have seen and as you have done overseas, people coming into 
the United States, including those legal residents, including 
other travelers--visitors.
    Mr. Duncan. How is that information used? You are gathering 
that information from them as they come to the United States--
--
    Mr. Donahue. That is right.
    Mr. Duncan [continuing]. But we are not gathering that 
information as they exit.
    Mr. Donahue. That is correct. I would defer to Department 
of Homeland Security on that because that is a Department of 
Homeland Security program--departure.
    Mr. Duncan. I will refer to them.
    Mr. Cohen.
    Mr. Cohen. Mr. Duncan, thank you. As you pointed out, there 
are three elements of an effective entry-exit system: It is the 
collection of information and biometrics upon application and 
entry, it is the feeding those biometrics into a information 
lair that connects not only that data with other immigration 
data but that data with other law enforcement data and 
intelligence data, and then there is the collection of 
information upon departure.
    The Department is finalizing its plan for a comprehensive 
biometric exit system. We expect to have it to Congress 
shortly. As required by our recent appropriations bill, it will 
lay out not only the details of how we will link those three 
levels of activity together but how we will also achieve 
immediate benefit to your other point, which is making sure 
that we are better able to identify those visa overstays who 
are actually visa overstays and still in this country who 
aren't National security or public safety threats.
    Mr. Duncan. Okay. You determine that someone has overstayed 
their visa; they haven't left on the date they were supposed 
to. A little period of time goes through, you check your 
records.
    At what point in time do you all start implementing the 
process of finding the address where they said they were going 
to be, researching where that person may be, and trying to 
enforce removing them from the country? At what time does that 
kick in?
    Mr. Cohen. I believe it is 30 days after the point of 
overstay. But if I may point out, because the process today 
requires so many manual database checks and is so resource-
intensive ICE prioritizes for enforcement actions those visa 
overstays that are National security or public safety risks.
    When we implement the enhancements that I described earlier 
we will be better able to identify those other visa overstays, 
provide that information into law enforcement systems so upon 
next encounter their overstay status will be identified, ensure 
that information gets to State Department so if they have 
departed the country and they seek to come back from a visa 
waiver country or through a visa process again State Department 
can take appropriate actions.
    So we are going in the direction that you are suggesting. 
The problem is all of these systems that we need to make these 
determinations are disconnected and they use different 
language.
    Mr. Duncan. I am out of time and I will look for a second 
round of questions, but I would just make a point--they are 
disconnected. The 9/11 Commission Report pointed to the fact 
that the disconnect of agencies talking to one another wasn't 
there. You had walls of separation. That is the problem, and I 
am afraid that we have got to correct that if we are going 
forward.
    I will yield back.
    Mrs. Miller. We probably aren't going to have a second 
round of questions, so if you would like to ask one more 
question, please, I will yield to you.
    Mr. Duncan. Okay. Thank you.
    I want to continue going down this path because--we see, 
based on the--number of visa overstays that were involved in 
terrorist activity, at what point of time is someone that is 
stopped for a traffic violation or misdemeanor, as we saw with 
the gentleman on Capitol Hill, at what point in time do you 
say, ``Well, they are a visa overstay; they are unlawfully 
present in the United States of America,'' and they are 
returned to their country?
    Americans are scratching their head looking at the data 
that is provided--and this is real data, actual cases. They are 
scratching their head going, ``Why isn't America--these are the 
low-hanging fruit. Why isn't America dealing with this?'' 
Because I am--they are scratching their head. Answer that for 
me, someone, please.
    Mr. Cohen. So I would answer your question, Congressman, by 
saying we are dealing with it and we have finally begun the 
process of linking those disparate systems that you identified 
earlier together so that when a police officer arrests somebody 
and books that individual into jail they are quickly identified 
as being in violation of their immigration status so that ICE 
can be notified and appropriate enforcement actions can take 
place. That is the very capability that we are beginning--we 
have begun the process of putting into place.
    Again, we expect to have the detailed plan to Congress 
shortly that will lay out what we are doing, but it has already 
begun, as I testified earlier, and we have already seen 
dramatic improvements in our ability to identify those visa 
overstays that represent National security or public safety 
threats. Again, this is from a pool of individuals that would 
not have been vetted before.
    So progress is being achieved. To your very point, we 
absolutely agree with you. These systems have to be linked 
together and they have to be linked together to support the 
operational activities of ICE and CBP and the other enforcement 
agencies that are responsible for enforcing our immigration 
laws.
    Mr. Duncan. You shouldn't have to keep coming back to 
Congress because the law is the law of the land right now. 
Immigration and Customs Enforcement--immigration enforcement 
means that you enforce the immigration laws of the United 
States of America, and if you do that then folks that are 
caught on misdemeanors that have been here for 13 years over 
their visa deadline are picked up and they are deported from 
this country. That is what America expects from you, to enforce 
immigration laws that are on the books today and not keep 
having to come back to Congress for more and more and more.
    Integration--I get that. But customs enforcement and 
immigration enforcement is your responsibility. I charge you 
guys with doing your job.
    With that, Madam Chairwoman, I yield back.
    Mrs. Miller. Chairwoman now recognizes the gentleman from 
the great State of Michigan, Mr. Clarke.
    Mr. Clarke of Michigan. Thank you, Madam Chairwoman.
    While we realize it is very important to track those 
individuals who are overstaying their visas, especially those 
who are likely to be terrorists, I also think it is important 
for this Congress and Department of Homeland Security to focus 
on preventing terrorists from entering our country in the first 
place. So to that end, I want to thank the advocacy of our 
Chairwoman who has been focusing on how we can get more 
resources to better secure our Northern Border to prevent these 
criminals, terrorists, and drug traffickers from coming across 
the border into our country, especially securing our border 
between Canada and Michigan. We do need the resources to better 
monitor that border and apprehend these folks in case they do 
come over.
    To that same end, my question is this: How can we better 
secure the visa process to prevent terrorists from coming into 
our country in the first place--better secure that process but 
yet tailor it in such a way that we don't discourage but even 
encourage the immigration that we do need in this country? You 
know, I represent the city of Detroit, a metropolitan area that 
needs more economic investment. Capital is global. We want to 
encourage more international investors and entrepreneurs to 
come to this country to get a green card, especially when then 
invest in distressed areas like Detroit, or Pontiac, or Flint, 
in Michigan.
    How can we have a process that balances the security that 
we need to prevent these folks that want to do us harm from 
even getting into this country but encouraging investors, 
entrepreneurs, encouraging those international graduates, 
especially in science and engineering and mathematics to 
actually stay in the United States to promote more innovation 
that will create more jobs for our country?
    Mr. Edge. Thank you very much for your question, Mr. 
Clarke. As far as ICE is concerned, we have our Visa Security 
Program, and what we are trying to do to encourage the 
expedited process of--and vetting of visa applicants is to do a 
lot of that on the domestic side through technology. We have 
many offices overseas--approximately 71 in 47 countries, and 
what we would like to do and what we have begun to do is to use 
our technological capabilities to vet these applicants in 
conjunction with our friends at the Department of State to 
enhance the process, to encourage people to want to come to 
this country, and they will know that the process will be a 
little faster than it has been in the past.
    So that is one of the things that, through the Visa 
Security Program, we are doing. This will also allow our people 
who are in those other countries working and representing the 
United States in homeland security investigations to focus more 
on investigative work. But we are actively working on those 
technological enhancements right now.
    Mr. Cohen. If I may add, Congressman, I think you raised an 
excellent point, and part of the answer includes extensively 
pre-vetting to the greatest degree possible either those 
individuals or those corporate entries seeking to cross the 
border. So the auto industry in Michigan and Detroit area rely 
on just-in-time deliveries. If those deliveries of parts and 
goods do not make it to those factories cars are not going to 
be produced.
    People travel from Windsor to Detroit every day to enjoy 
restaurants and enjoy other elements. So what we are moving 
towards is an environment where to the greatest degree possible 
we can validate those people who have a legal--who legally can 
enter this country, whether they are doing it for business or 
for pleasure, and vet those people against the broadest array 
of intelligence and law enforcement systems so we can weed out 
initially, before they come to this country, those people who 
represent a danger to this country, thereby enabling those who 
don't represent a danger who can help our economy grow can 
travel more effectively and efficiently to this country.
    Mr. Clarke of Michigan. Thank you, Mr. Cohen.
    Thank you, Mr. Edge.
    Mr. Donahue. Let me just mention that the prevention of 
issuance to these--of visas to persons like the overstay is one 
of our key goals in all of our visa adjudications. We do a lot 
of training but we also do a lot of what we call validation 
studies. We will take a group of people, using information 
from--the ADIS records from the Departure and Information 
Service, and we will look to see if a person--if this group of 
persons--it could be a group of elderly people coming for 
vacations or to see their family members--are they likely to 
overstay in the United States, or students? We will do this by 
groups, and we do it from a number of--from all countries 
around the world and check to see how our officers are doing.
    We also make sure that they understand what the culture is, 
what is the likelihood that people will return? We refuse about 
a million visas a year, and yet we find in our validation 
studies more and more that we are getting very close to finding 
that almost everyone--we would like it to be everyone--uses 
their visa appropriately and comes back in many of the 
countries where we have been doing these validation studies.
    Mr. Clarke of Michigan. Thank you, Mr. Donahue.
    I yield back my time.
    Mrs. Miller. Chairwoman recognizes the Ranking Member.
    Mr. Cuellar. Thank you, Madam Chairwoman.
    Couple questions. It is concurrent--that is, Mr. Cohen, two 
questions real quickly--in its current configuration the U.S. 
visa program has failed to fulfill its statutory requirement 
regarding deploying a biometric exit system to track visitors 
to the United States and better identify overstays. The 
administration's fiscal year 2013 budget request proposes that 
we transfer the US-VISIT's functions from NPPD to CBP and ICE. 
Some have expressed concerns that this transfer will be 
detrimental to the U.S. visa mission but others argue that 
aligning this mission with the relevant components makes more 
sense.
    Can you please explain how aligning US-VISIT with CBP and 
ICE would strengthen the program and help DHS get an exit 
system done?
    Mr. Cohen. Thank you, Congressman. You know, the Secretary 
isn't a big fan of moving boxes around and it is--it--she has 
rarely come to Congress and sought an organizational change 
such as this, but the rationale behind the change is much if 
not all of what US-VISIT does ties directly to the enforcement 
and operational activities of either ICE or CBP.
    So from an efficiency perspective and from a financial 
perspective, in order to avoid duplicative efforts, it just 
made sense to place those functions of US-VISIT that most 
support ICE's operational mission into ICE and those parts of 
the US-VISIT mission that best support CBP's operational issues 
or operational functions into CBP.
    The only other thing I would add is that as we learned 
through this initiative from the beginning, that the effective 
management and enforcement of our visa and immigration laws, of 
our counterterrorism responsibilities occurs best when the 
different elements of the Department are working closely 
together. So the movement of US-VISIT into CBP and ICE should 
not be viewed as a taking a step back, that the Department is 
going to continue to enhance its operational coordination 
across all of its components.
    Mr. Cuellar. Okay. Thank you, Mr. Cohen.
    Finally, you say that DHS will soon transmit to Congress 
your plan for deploying the biometric exit. How soon is soon?
    Mr. Cohen. Without giving a specific date, it is going to 
be within weeks, not months, not years. We are putting the 
finishing touches on the report as we speak.
    Mr. Cuellar. Weeks, so that is within the next 30 days?
    Mr. Cohen. That would be our intention.
    Mr. Cuellar. Okay. All right.
    Thank you to all three of you all.
    Thank you, Madam Chairwoman, for having this meeting today.
    Mrs. Miller. Thank you very much.
    I certainly want to thank all the witnesses, as well.
    Mr. Cohen, I was going to ask that question so I am glad my 
colleague did, as well. We are certainly interested to see what 
you described as a work in progress. I think it is hopefully 
clear from all of the Members here that this issue is something 
that this subcommittee is very, very focused on--and I really 
don't think that enough attention has been paid in the past, as 
I say, because--we seem to be so focused on what is going on 
with securing--our Southern Border, in particular. Believe me, 
I am not minimizing the challenges that we have down there, 
certainly with the drug cartels, and the violence, and the 
spillover, et cetera, and illegals that are coming across. I 
think this Nation certainly wants this Congress and all the 
agencies that are under our umbrella to exercise the political 
will that we need to to secure our borders--all of our borders.
    But I think this visa overstay issue, again, is something 
that we have just not paid enough attention to. Certainly we 
want to work with all of your agencies on making sure that 
Congress is, through the appropriations process, et cetera, is 
assisting where we need to to prioritize our spending.
    Again, I always thank our Chairman of this--of the full 
committee for putting those posters--will you--turn around you 
see the posters on the back of the wall there, which are of the 
burning towers on 9/11 and why the Department of Homeland 
Security was even put together. Again, four of those cowards--
those terrorists that attacked innocent--and murdered innocents 
that day were here on visa overstays.
    So we don't want to be in any way an adversarial position 
with any of your agencies. We do commend you for all of the 
work that you have done and are doing on this issue and we 
certainly want to be a conduit--to be a success in making sure 
that we do have a very comprehensive--not just the entry but 
the exit system, really a robust biometric system.
    So again, we thank the witnesses for all of your testimony 
and look forward to working with you shoulder-to-shoulder to 
solve this problem.
    With that, I would mention that if any Members of the 
subcommittee have any other additional questions the hearing 
record will remain open for 10 days. With that, the 
subcommittee will be adjourned. Thank you.
    [Whereupon, at 11:05 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
